    February 23, 2006




Information Technology
Management
DoD Organization Information
Assurance Management of
Information Technology Goods and
Services Acquired Through
Interagency Agreements
(D-2006-052)




             Department of Defense
            Office of Inspector General
 Quality                Integrity     Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AEFC                  Air and Space Expeditionary Force Center
CIO                   Chief Information Officer
DoD IG                Department of Defense Inspector General
ESA                   Enterprise Service Activity
COR                   Contracting Officer’s Representative
GAO                   Government Accountability Office
IA                    Information Assurance
IT                    Information Technology
JPAS                  Joint Personnel Adjudication System
MIPR                  Military Interdepartmental Purchase Request
NETC                  Naval Education and Training Command
SPAWARSYSCOM          Space and Naval Warfare Systems Command
SSC                   Space and Naval Warfare Systems Center
USARC                 U.S. Army Reserve Command
               Department of Defense Office of Inspector General
Report Number D-2006-052                                             February 23, 2006
  (Project No. D2005-D000AS-0173)

   DoD Organization Information Assurance Management of Information
               Technology Goods and Services Acquired
                   Through Interagency Agreements


                                Executive Summary

Who Should Read This Report and Why? Chief information officers within DoD and
individuals responsible for DoD Component information assurance should read this
report because it contains information on properly securing information technology
goods and services purchased through interagency agreements.
Background. Many Federal agencies, including DoD, are now making greater use of
interagency agreements to improve the Government’s aggregate buying power and
simplify the procurement process. The information technology goods and services
purchased through these agreements do not stand alone, but instead are part of the
seamless web of communications networks, computers, software, databases, applications,
security services, and other capabilities used by DoD. As a result, information assurance
is an important aspect of any DoD information system, no matter how the system
components or services are acquired, whether through traditional acquisitions or
interagency agreements.

DoD Components are required to implement and maintain adequate security programs
that include the minimum information assurance controls outlined in DoD
Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6, 2003, for
all DoD information systems. Army, Navy, and Air Force chief information officers rely
on subordinate command chief information officers to follow this guidance for all
information systems, including those acquired through interagency agreements.
Additionally, the National Institute of Standards and Technology Special Publication
800-12, “An Introduction to Computer Security,” October 1995, recommends monitoring
procedures for tracking user activity on DoD systems and networks.
Results. Officials at four DoD organizations within the Army, Navy, and Air Force did
not fully implement comprehensive information assurance controls required to protect
DoD information. Specifically, organization users were granted access to DoD systems
prior to receiving information assurance training, user security clearances were not
verified, and user activity reviews were not conducted. As a result, the integrity,
confidentiality, and availability of DoD operational data and information technology
systems cannot be guaranteed. See the Finding section of the report for the detailed
recommendations. The U.S. Army Reserve Command and Space and Naval Warfare
Systems Command (including the Space and Naval Warfare Systems Center San Diego)
management controls for coordinating, documenting, and tracking information assurance
training completion were not adequate to ensure that training was provided to all
personnel and the management controls for verifying user security clearances were not
adequate to ensure that access was granted to the appropriate personnel. The Air and
Space Expeditionary Force Center management controls for monitoring user activity
were not adequate to detect, report, and document attempted or realized penetrations of
information systems. Implementing the recommendations will correct the identified
weaknesses.

Management Comments and Audit Response. The Commander, U.S. Army Reserve
Command responded to the findings in the draft of this report, but did not respond to the
recommendations. The U.S. Army Reserve Command should provide comments on the
final report by April 24, 2006. The Commander, Space and Naval Warfare Systems
Command and the Commander, Space and Naval Warfare Systems Center San Diego
concurred with two of the recommendations and were not responsive to two of the
recommendations. We do not agree that there is a clear procedure for ensuring that
information assurance awareness training is properly documented and tracked for all
personnel. The Commander, Air and Space Expeditionary Force Center concurred with
the recommendations; therefore no further comments are required. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                         i

Background                                               1

Objectives                                               2

Managers’ Internal Control Program                       2

Finding
     DoD Organization Information Assurance Management   4

Appendixes
     A. Scope and Methodology                            12
     B. Prior Coverage                                   15
     C. Report Distribution                              17

Management Comments
     Department of the Army                              19
     Department of the Navy                              22
     Department of the Air Force                         27
Background
           Interagency Agreements. Many Federal agencies are now making greater use of
           interagency agreements to purchase commonly used goods1 and services,2
           including information technology (IT), thereby improving the Government's
           aggregate buying power and simplifying the procurement process. The IT goods
           and services purchased through these agreements do not stand alone, but instead
           are part of the DoD communications networks, computers, software, databases,
           applications, and security services. Information assurance (IA) is an important
           aspect of all DoD information systems, no matter how the system components or
           services are acquired, whether through traditional acquisitions or interagency
           agreements.

           Information Assurance. DoD Instruction 8500.2, “Information Assurance (IA)
           Implementation,” February 6, 2003, states that each DoD Component is
           responsible for implementing and maintaining an adequate security program for
           information and IT assets that includes an IA architecture, a supporting master
           plan, clear assignment of organizational roles and responsibilities, and for
           developing and managing a professional IA workforce.

           Command Roles and Responsibilities. DoD Directive 8500.1, “Information
           Assurance (IA),” October 24, 2002, certified current as of November 21, 2003,
           directs the Assistant Secretary of Defense for Networks and Information
           Integration, as the DoD Chief Information Officer (CIO), to monitor and evaluate
           IA by developing guidance and annually evaluating DoD Component readiness.
           Further, DoD Directive 8500.1 requires DoD Component heads to develop and
           implement Component-specific IA programs and provide IA awareness training
           to all Component personnel. Army, Navy, and Air Force CIOs rely on
           subordinate organization CIOs to follow this guidance for all information
           systems, including those acquired through interagency agreements. As such, we
           focused on IA policy and guidance implementation at several Army, Navy, and
           Air Force organizations to assess the overall effectiveness of the DoD and Service
           CIO management of IA controls over IT goods and services obtained through
           interagency agreements. DoD Instruction 8500.2 establishes a baseline IA level
           for all DoD information systems through the assignment of specific IA controls.

           Information Assurance Controls. IA controls protect and defend the integrity,
           confidentiality, and availability of information and information systems and
           include user IA awareness training, security clearance documentation, and user
           activity monitoring.

           This report will focus on IA controls for four of the six interagency purchases
           selected:

                    •    U.S. Army Reserve Command (USARC) used Military
                         Interdepartmental Purchase Request (MIPR) No. MIPR04CIBER037
1
    Goods are tangible products, such as computer hardware or software.
2
    Services are work performed by a contractor to update, implement, or change an already established
     system, such as systems integration or administrative tasks.



                                                       1
               to pay the balance owed on an existing interagency agreement,
               allowing the command to rebid for network services using traditional
               acquisition processes.


           •   Space and Naval Warfare Systems Command (SPAWARSYSCOM),
               used MIPR No. N0003904IPFLD36 to purchase a systems integration
               to ensure that communications and advanced command hardware meet
               requirements.

           •   Naval Education and Training Command (NETC) used MIPR
               No. N6804504MPAC202 to fund the procurement and installation of
               5,000 computer workstations, including physical connections, network
               configuration, de-installation, on-site data wiping, and
               disposal/decommissioning of existing computers.

           •   Air and Space Expeditionary Force Center (AEFC) used MIPRs
               No. DD44809N401228 and DD44809N401229 to purchase on-site
               Continuity of Operations equipment and off-site backup equipment.


Objectives
    Our overall audit objective was to evaluate DoD and Service CIO processes for
    managing IT goods and services obtained through interagency agreements and
    determine whether those processes adequately addressed information security.
    Specifically, we determined whether DoD and Service CIOs followed DoD and
    Federal policies for proper certification and accreditation, risk assessment, and
    user access permissions related to DoD information systems. We also reviewed
    the managers’ internal control program as it related to the overall objective. See
    Appendix A for a discussion of the scope and methodology and Appendix B for
    prior coverage related to the objectives.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Managers’ Internal Control Program. We
    reviewed the adequacy of management controls over DoD Component IT
    resources. Specifically, we reviewed USARC, SPAWARSYSCOM and Space
    and Naval Warfare Systems Center (SSC) San Diego, NETC, and AEFC
    management controls over IT funding and IA. In addition, we reviewed
    management’s self-evaluation applicable to those controls.



                                         2
Adequacy of Management Controls. We reviewed material management
control weaknesses for the four sites visited, as defined by DoD
Instruction 5010.40. The USARC, SPAWARSYSCOM, and SSC San Diego
management controls for coordinating, documenting, and tracking IA training
completion were not adequate to ensure that training was provided to all
personnel in accordance with DoD Directive 8570.1, “Information Assurance
Training, Certification, and Workforce Management,” August 15, 2004. The
USARC, SPAWARSYSCOM, and SSC San Diego management controls for
verifying user security clearances were not adequate to ensure that access was
granted to the appropriate personnel in accordance with the Office of
Management and Budget Circular A-130, “Security of Federal Automated
Information Resources,” November 28, 2000, and the Office of the Under
Secretary of Defense Memorandum, “Facilitating Classified Visits within the
Department of Defense,” April 1, 2005. The AEFC management controls for
monitoring user activity were not adequate to detect, report, and document
attempted or realized penetrations of information systems because the procedures
for doing so were not documented. Implementing the recommendations will
correct the identified weaknesses. A copy of the report will be provided to the
senior officials responsible for management controls at USARC,
SPAWARSYSCOM, and AEFC. We did not identify any management control
weaknesses at NETC.

Adequacy of Management’s Self-Evaluation. USARC officials did not identify
IA as an assessable unit and, therefore, did not identify or report the management
control weaknesses identified by our audit. Program Executive Officer
Command, Control, Communications, Computers and Intelligence and Space
officials identified IA accreditation as part of an assessable unit but did not
perform an evaluation because management did not complete the schedule in the
management control plan. AEFC officials identified IT as an assessable unit;
however, during its evaluation they did not identify the management control
weaknesses identified by this audit because the AEFC evaluation covered a much
broader area. NETC officials identified IA as an assessable unit and, like the
audit team, identified no specific management control weakness related to the
unit.




                                    3
           DoD Organization Information
           Assurance Management
           Officials at four DoD organizations within the Army, Navy, and Air Force
           had not fully implemented the comprehensive IA controls that are required
           to protect DoD information systems. Specifically:

               •   organization users did not receive IA awareness training prior to
                   being granted access to DoD systems,

               •   user security clearances were not verified, and

               •   user activity reviews were not conducted.

           DoD organization officials did not fully implement IA controls because IA
           roles and responsibilities were unclear and current operations were not
           documented. As a result, the integrity, confidentiality, and availability of
           DoD operational data and IT systems cannot be guaranteed.
Information Assurance Controls
    Officials at four DoD organizations within the Army, Navy, and Air Force had
    not fully implemented comprehensive IA controls that are required to protect
    DoD information systems. DoD Directive 8500.1, “Information Assurance (IA),”
    October 24, 2002, certified current as of November 21, 2003, assigns
    responsibility to DoD Component Heads for developing and implementing IA
    programs focused on securing the integrity, confidentiality, and availability of
    DoD information and information systems. Instead, DoD Components rely on
    organization-level CIOs to develop and fully implement tailored, comprehensive
    IA programs for all IT goods and services obtained, whether through traditional
    acquisitions or interagency agreements.

    Information Assurance Awareness Training. DoD Directive 8570.1
    “Information Assurance Training, Certification, and Workforce Management,”
    August 15, 2004, requires that all authorized users, including contractors, receive
    IA awareness training as a condition of access to any DoD system and, thereafter,
    complete annual IA refresher training.

    From May through August 2005, we included in our USARC selection for review
    any Government or contract official with access to or responsibility for the
    existing interagency agreement that was paid-in-full using MIPR
    No. MIPR04CIBER037. Additionally, from June through August 2005, we
    included in our SPAWARSYSCOM and SSC San Diego selection for review any
    Government or contract official with access to or responsibility for the systems
    integration using MIPR No. N0003904IPFLD36.
    USARC and SPAWARSYSCOM, and SSC San Diego system users did not
    receive IA awareness training prior to being granted access to the systems
    because USARC, SPAWARSYSCOM, and SSC San Diego officials did not



                                         4
effectively coordinate, document, and track IA training for all personnel and IT
users.

USARC officials could not provide completed training forms for 8 of the
15 contractor personnel (53 percent) reviewed because USARC Headquarters and
USARC Enterprise Service Activity (ESA) personnel did not clearly establish
who was responsible for retaining IA training records and verifying completion.
USARC Headquarters and USARC ESA officials should identify and assign
specific roles and responsibilities for implementing the USARC IA awareness
training program.

SPAWARSYSCOM and SSC San Diego officials could not provide IA training
documents for any of the seven contract personnel reviewed because officials did
not clearly establish responsibility for ensuring that IA training was completed by
all personnel, including contractors. SPAWARSYSCOM and SSC San Diego
officials should identify and assign specific roles and responsibilities for
implementing the SPAWARSYSCOM and SSC San Diego IA awareness training
program.

USARC, SPAWARSYSCOM, and SSC San Diego personnel should improve
their IA awareness training programs for all employees and contractors so that all
Government and contract personnel are aware of their security roles and
responsibilities and understand the potential threats to DoD systems before they
gain access to information systems.

User Access Controls. DoD organization officials did not adequately verify user
security clearances or conduct user activity reviews.

        User Security Clearances. The Office of Management and Budget
Circular A-130, “Security of Federal Automated Information Resources,”
November 28, 2000, requires that individual security clearances be verified prior
to authorizing personnel access to IT systems, and periodically thereafter.
Further, the Office of the Under Secretary of Defense Memorandum, “Facilitating
Classified Visits within the Department of Defense,” April 1, 2005, requires that
the Joint Personnel Adjudication System (JPAS) be used to verify personnel
security clearances for visitors requiring access to classified information.

The four DoD organizations reviewed had developed procedures for verifying the
identity, personnel security clearance, and need-to-know for all visitors prior to
giving authorized access to IT systems. However, two of the four organizations,
USARC and SPAWARSYSCOM, did not fully implement the procedures
developed and, as a result, were not adequately verifying user security clearances.
        USARC Headquarters and USARC ESA officials did not clearly establish
responsibility for user security clearance verification. For example, USARC ESA
and USARC Headquarters officials could not provide JPAS security verification
for 6 of the 15 contractors reviewed. USARC officials provided visit
authorizations for some users and JPAS verifications for others. Not only was
there confusion regarding which officials were responsible for verifying which
users, but also regarding the required documents and procedures to be used.



                                     5
            USARC officials should identify and assign specific roles and responsibilities for
            verifying USARC user security clearances.

                    Although SPAWARSYSCOM and SSC San Diego officials verified
            contract agency facility clearances3 by confirming that each visit request was
            necessary, they did not adequately verify that individual security clearances4 were
            current, nor did they validate each using JPAS because the procedures were
            unclear and not documented. This current process fully relies on the contract
            agency to provide accurate information on individual contractors who may
            change during the course of a project. SPAWARSYSCOM and SSC San Diego
            officials should define specific responsibilities for verifying individual security
            clearance information and use the JPAS to validate individual clearance
            information.

                    User Activity Reviews. DoD Instruction 8500.2, “Information Assurance
            (IA) Implementation,” February 6, 2003, requires that DoD Component IA
            programs detect, report, and document attempted or realized penetrations of DoD
            information systems and include appropriate countermeasures or corrective
            actions. The National Institute of Standards and Technology Special
            Publication 800-12, “An Introduction to Computer Security,” October 1995,
            recommends periodic monitoring of audit logs to identify unauthorized use.

                    While three of the four DoD organizations reviewed had developed user
            activity monitoring programs to protect their systems, AEFC did not fully
            implement a user activity monitoring program because specific procedures were
            not documented and a formal, recurring monitoring schedule had not been
            developed. Instead, AEFC officials stated they informally review the audit logs
            three times a week for suspicious activity. These procedures rely on infinite
            permanency in personnel positions and consistent memory to periodically review
            the logs. AEFC officials should develop standard written procedures for
            monitoring user activity and establish a schedule for reviewing system audit logs
            that will help protect organization information and IT systems. Without such a
            monitoring system, the AEFC organization systems’ first line of defense may be
            weakened.


Conclusion
            The integrity, confidentiality, and availability of DoD operational data and IT
            systems cannot be guaranteed because IA awareness training programs were not
            fully implemented and monitored, user security clearances were not adequately
            verified, and user activity reviews were not conducted regularly. Without proper
            training implementation and recording, the integrity of DoD systems cannot be
            guaranteed because users may not be aware of, and strictly adhere to, the
            standards of conduct necessary to protect the information. Additionally, if user
3
    Facility clearances are granted to an entire contractor facility, based on an investigation verifying that the
     individuals who run, own, and manage the facility have been cleared.
4
    Individual security clearances are granted to individual personnel, based on background investigations and
     personal interviews.



                                                          6
    security clearances are not adequately verified, then the confidentiality of secretly
    disclosed or closely held organization information may be compromised because
    the information may be released to individuals who are not properly cleared.
    Furthermore, if user activity reviews are not conducted regularly, users may
    improperly use organization systems to damage or impair the availability of
    critical DoD information.

    Previous DoD Inspector General (DoD IG) Report No. D2005-025, “DoD
    FY 2004 Implementation of the Federal Information Security Management Act
    for Information Technology Training and Awareness,” December 17, 2004,
    identified weaknesses in IA training programs at the Defense Commissary
    Agency, Defense Contract Management Agency, and Washington Headquarters
    Services. The report concluded that the DoD CIO did not establish adequate
    procedures for DoD Components to monitor IA awareness training. Our report
    identifies similar weaknesses at USARC, SPAWARSYSCOM, and SSC San
    Diego. Our repeated identification of systemic IA training weaknesses at various
    DoD activities indicates that the DoD CIO and individual DoD Components
    continue to ineffectively monitor and implement their IA training programs. No
    additional recommendations to the Assistant Secretary of Defense for Networks
    and Information Integration/DoD Chief Information Officer will be made at this
    time because ongoing corrective actions for the recommendations made in DoD
    IG Report No. D2005-025 should correct the identified problems.


Management Comments on the Findings and Audit
 Response
    Management Comments. The Commander, U.S. Army Reserve Command
    stated that the findings and recommendations in the draft report were incorrect or
    were no longer valid concerns. The Commander, U.S. Army Reserve Command
    stated that MIPR No. MIP04CIBER037 expired in September 2004 and a new
    contract with a different contractor was in place at USARC as of July 2005.

    Audit Response. USARC comments were not responsive. The audit team
    focused on contract personnel that were retained by the new contract. DoD
    information assurance policies and procedures apply to the new contract and
    contractor.

    Information Assurance Awareness Training. The Commander, U.S. Army
    Reserve Command stated that USARC has an IA training program in place which
    includes both initial IA training (provided in a Newcomer’s Orientation) and
    annual refresher training (provided via Web-based instruction). Further, the
    Commander, U.S. Army Reserve Command stated that the USARC Information
    Assurance Security Officer maintains training certificates for those who complete
    IA training in a centralized database. Finally, the Contracting Officer’s
    Representative (COR) and the Contractor’s Program Manager, who were not
    interviewed during the site visit, maintain IA training records for contract
    personnel.




                                          7
    Audit Response. USARC comments were not responsive. DoD Directive
    8570.1 requires that IA training be tracked and documentation be maintained by
    the IA Security Officer. However, the IA Security Officer had not tracked or
    documented that the reviewed contractor personnel had received training.
    Additionally, the IA Security Officer did not provide information or an agreement
    that either the COR or the Contractor’s Program Manager were designated with
    the responsibility to track and document IA training. Therefore, USARC could
    not provide assurance that contractor personnel received the required IA training
    before accessing DoD information systems.

    User Security Clearances. The Commander, U.S. Army Reserve Command
    stated that USARC Headquarters G-2/6 Security Office was responsible for
    verifying security clearance information and has used JPAS for more than 2 years.
    Additionally, the Commander, U.S. Army Reserve Command stated that the
    USARC G-2/6 Security Office assigned security managers within every
    directorate, both Headquarters and the USARC ESA. Further, USARC stated that
    the COR and the Contractor’s Program Manager maintain contractors’ security
    clearance information.

    Audit Response. USARC comments were not responsive. Neither USARC
    Headquarters G-2/6 Security Office nor USARC ESA Security Managers could
    provide documentation that verified contractors maintained the proper security
    clearances. It is the responsibility of the IA security office to verify and maintain
    documentation that contractors’ security clearances are valid and updated.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, U.S. Army Reserve Command
    direct the Chief Information Officer, U.S. Army Reserve Command to:

            a. Conduct and document annual information assurance awareness
    training, in accordance with DoD Directive 8570.1, “Information Assurance
    Training, Certification, and Workforce Management,” August 15, 2004, for
    all U.S. Army Reserve Command employees and contractors.

           b. Within 30 days of report issuance, establish clear procedures that
    designate organization-specific roles and responsibilities for tracking
    training for all employees and contractors.

           c. Within 30 days of report issuance, establish clear procedures
    designating specific roles and responsibilities for verifying individual security
    clearances in accordance with the Office of Management and Budget
    Circular A-130, “Security of Federal Automated Information Resources,”
    November 28, 2000, for all U.S. Army Reserve Command employees and
    contractors.

    Management Comments. The Commander, U.S. Army Reserve Command did
    not comment on the recommendations. We request the Commander, U.S. Army


                                          8
Reserve Command provide comments to the final report recommendations by
April 24, 2006.

2. We recommend that the Commander, Space and Naval Warfare Systems
Command direct the Chief Information Officer, Space and Naval Warfare
Systems Command and the Chief Information Officer, Space and Naval
Warfare Systems Center San Diego to:

       a. Conduct and document annual information assurance awareness
training, in accordance with DoD Directive 8570.1, “Information Assurance
Training, Certification, and Workforce Management,” August 15, 2004, for
all Space and Naval Warfare Systems Command employees and contractors.

        Management Comments. The Commander, Space and Naval Warfare
Systems Command concurred with Recommendation 2.a. The Commander, Space
and Naval Warfare Systems Command stated that IA training is conducted and
documented for all personnel to include contractors with computer system and
network access. The Commander, Space and Naval Warfare Systems Command
works within the Navy-Marine Corps Intranet network. IA training was
conducted command-wide in FY 2005 and a manual process is in place to track
completion of IA training. Individuals are responsible to provide completion
certificates to the Command IA Manager. Additionally, new personnel who
require access to the Navy-Marine Corps Intranet must compete IA training and
provide a certificate prior to receiving access approval. SSC San Diego conducts
and documents IA training for all military, Government, and contractor personnel
with computer system and network access. SSC San Diego has established a
Web-based training module that automatically updates and tracks training.
Center-wide IA training was completed on September 30, 2005.

        Audit Response. Although the Commander, Space and Naval Warfare
Systems Command concurred with the recommendation, the comments were not
responsive. SPAWARSYSCOM and SSC San Diego were unable to provide
training documentation for the contractors reviewed that showed they had
received the required IA training before accessing the DoD information system.
The SPAWARSYSCOM current system does not ensure that personnel who are
outside the Navy-Marine Corps Intranet network will receive IA training as
required by DoD Directive 8570.1.

       b. Within 30 days of report issuance, establish clear procedures
designating organization-specific roles and responsibilities for tracking
training for all employees and contractors.

        Management Comments. The Commander, Space and Naval Warfare
Systems Command responded stating that SPAWARSYSCOM and SSC San
Diego already have a clear procedure in place to track training for all personnel.
Information Assurance Managers for each system center within the claimancy are
appointed in writing and are responsible for ensuring training of individuals with
access to their networks. SPAWARSYSCOM Claimancy IA staff including SSC
San Diego provides metrics to the Claimant IA Program Manager on a monthly
basis, and holds monthly and quarterly program reviews where they address
progress on key areas such as compliance with training.


                                    9
        Audit Response. SPAWARSYSCOM and SSC San Diego comments
were not responsive. Neither SPAWARSYSCOM nor SSC San Diego officials
could identify individual roles and responsibilities to track training of all
personnel including the contractors reviewed. Specifically, employees within the
SPAWARSYSCOM Claimancy IA staff were unable to identify the individual
responsible for tracking the IA training of the seven contract personnel. These
contractors had access to DoD information systems before receiving the required
IA training outlined in DoD Directive 8570.1. Therefore, SPAWARSYSCOM
and SSC San Diego officials cannot be assured that personnel who have not
received IA training before being granted access to DoD information systems are
aware of their security roles and responsibilities and understand the potential
threats to DoD systems.

       c. Within 30 days of report issuance, establish clear procedures
designating specific roles and responsibilities for verifying individual security
clearances in accordance with the Office of Management and Budget
Circular A-130, “Security of Federal Automated Information Resources,”
November 28, 2000, for all Space and Naval Warfare Systems Command
employees and contractors.

        d. Begin using the Joint Personnel Adjudication System immediately
to validate individual security clearances in accordance with the Office of the
Under Secretary of Defense Memorandum, “Facilitating Classified Visits
within the Department of Defense,” April 1, 2005.

Management Comments. SPAWARSYSCOM concurred with
Recommendations 2.c. and 2.d. stating that SPAWARSYSCOM will develop a
policy directive covering SPAWARSYSCOM claimancy and supported Program
Executive Offices, which will establish procedures for verifying individual
personnel security clearances and identify specific roles and responsibilities.
SPAWARSYSCOM estimates completion for Recommendation 2.c. by June 30,
2006. Further, SPAWARSYSCOM and SSC San Diego are in the process of
implementing the JPAS for the verification of security clearances. Additionally, a
Security Functional Change Lead Team will establish a new security policy
directive/manual that will comply with Office of the Under Secretary of Defense
Memorandum and Chief of Naval Operations policy to ensure visitor and security
clearance information is verified prior to authorizing access to
SPAWARSYSCOM facilities and classified information. The estimated
completion is April 1, 2006.

3. We recommend that the Commander, Air and Space Expeditionary Force
Center direct the Systems Administrator, Air and Space Expeditionary
Force Center to:

     a. Deactivate inactive, suspended, and terminated accounts
immediately.

          b. Review audit logs for failed and unauthorized user attempts to
log in.




                                    10
       c. Document consistent procedures that will help to implement the
deactivation of inactive, suspended, and terminated accounts and establish a
schedule to review audit logs on no less than a weekly basis for failed and
unauthorized user attempts to log in.

Management Comments. The Commander, Air and Space Expeditionary Force
Center concurred and ordered that all inactive, suspended, or terminated accounts
be deactivated immediately, effective January 13, 2006. Additionally, the Air
Force response stated that the AEFC Commander ordered reviews of all system
access logs under the control of AEFC to be performed and annotated in a System
Information Assurance Log on a weekly basis, effective January 11, 2006.
Finally, the Air Force response stated that the AEFC Commander ordered
development of permanent policy and procedures that address monitoring user
activity and established a schedule for reviewing system access on a weekly basis.
According to the Air Force response, policy documentation is due to the AEFC
Commander for review and approval by February 15, 2006.




                                    11
Appendix A. Scope and Methodology
      We met with DoD Office of Inspector General, Contract Management
      officials to gather information regarding their project, “Audit of DoD
      Purchases Through the General Service Administration,” (Project
      No. D2004-D000CF-0238.000). From these meetings we obtained and
      reviewed documentation and working papers to identify IT goods and services
      worth at least $100,000 that were purchased through interagency agreements.
      We selected the following eight MIPRs used by six DoD organizations for
      review:

      •   USARC used MIPR No. MIPR04CIBER037 to pay the balance
          ($2,135,811) on an existing interagency agreement, allowing the
          command to re-bid for Army Reserve Network services using traditional
          acquisition processes.

      •   SPAWARSYSCOM used MIPR No. N0003904IPFLD36 to purchase a
          $1,699,021 systems integration to ensure that communications and
          advanced command hardware meet requirements.

      •   NETC used MIPR No. N6804504MPAC202 to fund an $8,000,000
          procurement and installation for 5,000 computer workstations at 33 sites,
          including physical connections, network configuration, de-installation,
          on-site data wiping, and disposal/decommissioning.

      •   AEFC used MIPRs No. DD44809N401228 and DD44809N401229 to
          purchase on-site Continuity of Operations equipment for $40,143 and
          off-site backup equipment for $172,246.

      •   Commander, Naval Reserve Forces Command used MIPR
          No. N0007204MP34275 to procure Defense Message System equipment
          valued at $706,324.

      •   U.S. Southern Command used MIPRs No. MIPR4F21K60065 and
          MIPR4M21T60129 to purchase software integration and technical
          services totaling $7,500,000 for the Logistics Command and Control
          System in Colombia. However, we did not visit U.S. Southern Command
          in Miami, Florida, because all documents, hardware, and software related
          to MIPRs No. MIPR4F21K60065 and MIPR4M21T60129 at the U.S.
          Southern Command were controlled by the Colombian government, and
          therefore outside of our scope.

   We met with the DoD and Service CIOs to gather information regarding their
   management of interagency agreements, specifically our selected purchases, and
   identify the implemented IA requirements for each Service. Additionally, we met
   with Security officials from the DoD Office of Inspector General to identify
   information security procedures.

   We reviewed Federal and DoD policy to identify the procedures established for
   DoD Component IA programs, including IA training, user access, certification


                                      12
and accreditation, and risk assessment. Specifically, we reviewed DoD Directive
8500.1, “Information Assurance (IA),” October 24, 2002, certified current as of
November 21, 2003, to gather overall IA requirement information and determine
DoD Component heads’ roles and responsibilities for IA programs.

Information Assurance Training. We reviewed DoD Directive 8570.1,
“Information Assurance Training, Certification, and Workforce Management,”
August 15, 2004, to identify IA training requirements for DoD employees and
contractors.

User Security Clearance Verification. We reviewed the Office of Management
and Budget Circular A-130, “Security of Federal Automated Information
Resources,” November 28, 2000, to determine existing requirements for verifying
individual security clearances prior to providing authorized access to DoD
systems. Additionally, we reviewed the Office of the Under Secretary of Defense
Memorandum, “Facilitating Classified Visits within the Department of Defense,”
April 1, 2005, which better defines the required security clearance verification
system to be used.

User Activity Monitoring. We reviewed DoD Instruction 8500.2, “Information
Assurance (IA) Implementation,” February 6, 2003, and the National Institute of
Standards and Technology Special Publication 800-12, “An Introduction to
Computer Security,” October 1995, to determine the recommended monitoring
procedures for tracking user activity on DoD systems and networks.

We conducted interviews with IA, system administration, security, and
certification and accreditation officials at the following sites to gather detailed
information on the IA procedures each DoD Component developed and
implemented, related to the six selected MIPRs:

    •   USARC in Fort McPherson, Georgia, and USARC ESA in
        Peachtree City, Georgia;

    •   SPAWARSYSCOM Headquarters and SPAWAR Systems Center in
        San Diego, California;

    •   NETC Headquarters, Naval Air Station Pensacola and the Center for
        Naval Leadership, Naval Base Corry Station in Pensacola, Florida; Aegis
        Training and Readiness Center, Naval Surface Warfare Center Dahlgren
        Division in Dahlgren, Virginia; Navy-Marine Corps Intelligence Training
        Center in Virginia Beach, Virginia; and the Center for Naval Aviation
        Technical Training Unit, Naval Air Station Oceana in Virginia Beach,
        Virginia;

    •   AEFC at Langley Air Force Base in Virginia; and

    •   Commander, Naval Reserve Forces Command in New Orleans,
        Louisiana.

Additionally, we identified some conditions during our site visit at the
Commander, Naval Reserve Forces Command but, due to the condition of the


                                      13
New Orleans area after Hurricane Katrina, no recommendations will be
forthcoming.

During our interviews with the identified officials, we reviewed system security
authorization agreements; training completion documents; security clearance
verification forms; computer audit logs; and standard operating procedures related
to IA training, user security clearances, and user activity monitoring to determine
whether DoD Components properly followed Federal and DoD guidance.
Additionally, we used judgmental samples of personnel involved with the IT
goods or services purchased to test whether each Component’s user access
procedures were in accordance with applicable laws.

We performed this audit from April 2005 through December 2005 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We relied on computer-processed event or
audit logs generated by the DoD Component information systems. We reviewed
the information in the event or audit logs for compliance with Federal and DoD
guidance, but we did not assess the validity or accuracy of the systems used by
the DoD Components to generate the data.

 Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the Protecting the Federal Government’s Information
Systems and the Nation’s Critical Infrastructures high-risk areas.




                                    14
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, the Army Audit Agency, the Naval Audit
    Service, and the Air Force Audit Agency have issued 12 reports discussing
    information assurance. Unrestricted GAO reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-05-362, “Improving Oversight of Access to Federal
    Systems and Data by Contractors Can Reduce Risk,” April 22, 2005

    GAO Report No. GAO-01-307, “Progress and Challenges to an Effective
    Defense-wide Information Assurance Program,” March 30, 2001


DoD IG
    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2005-094, “Proposed DoD Information Assurance
    Certification and Accreditation Process,” July 21, 2005

    DoD IG Report No. D-2005-054, “DoD Information Technology Security
    Certification and Accreditation Process,” April 28, 2005

    DoD IG Report No. D-2005-025, “DoD FY 2004 Implementation of the Federal
    Information Security Management Act for Information Technology Training and
    Awareness,” December 17, 2004


Army Audit Agency
    Army Audit Agency Report No. A2004-0216-FFB, “Information Systems
    Security Material Weakness,” April 8, 2004




                                      15
Naval Audit Service
    Naval Audit Service Report No. N2004-0072, “Operational Controls at Naval Air
    Systems Command Headquarters and Naval Air Warfare Centers,” August 16,
    2004

    Naval Audit Service Report No. N2004-0063, “Operational Controls at Naval
    Aviation Depots,” July 9, 2004

    Naval Audit Service Report No. N2004-008, “Information Technology
    Certification and Accreditation Process,” October 28, 2003


Air Force Audit Agency
    Air Force Audit Agency Report No. F2005-0002-FB4000, “Information
    Assurance Position Certification Training for Air Force Network Professionals,”
    March 21, 2005

    Air Force Audit Agency Report No. F2002-0003-C06600, “Certification and
    Accreditation of Air Force Systems,” April 22, 2002




                                       16
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army for Financial Management and Comptroller
Auditor General, Department of the Army
Chief Information Officer, Department of the Army
Commander, U.S. Army Reserve Command

Department of the Navy
Assistant Secretary of the Navy for Manpower and Reserve Affairs
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Commander, Space and Naval Warfare Systems Command
Commander, Space and Naval Warfare Systems Center San Diego

Department of the Air Force
Assistant Secretary of the Air Force for Financial Management and Comptroller
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force
Commander, Air and Space Expeditionary Force Center




                                         17
Unified Commands
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. Transportation Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
Department of the Army Comments




                    19
20
21
Department of the Navy Comments




                    22
23
24
25
26
Department of the Air Force Comments




                     27
28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisitions and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
Richard B. Jolliffe
Jacqueline Wicecarver
Sean Davis
Therese Kince
Deirdre Beal
Benita Holliman
Kelly Lesly
Mandie Marr
Marcia Hart
Karma Cleveland
Matt Price
Meredith DePalma
Dana Fink
Jacqueline Pugh
Meredith H. Johnson
